<html>
<title> - A Deadly Calling: The Murder</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115th Congress                                                                         Printed for the use of the
2nd Session                                                       Commission on Security and Cooperation in Europe
________________________________________________________________________________________________________________________                                                          



                           
  A Deadly Calling: The Murder of Investigative Journalists
  
  
                  



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                    May 9, 2018


                                                                              
                  
                              Briefing of the
               Commission on Security and Cooperation in Europe
__________________________________________________________________________________________
                                Washington: 2018                                                













                  Commission on Security and Cooperation in Europe
                           234 Ford House Office Building
                              Washington, DC 20515
                                  202-225-1901
                              <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1675657573567b777f7a387e7963657338717960">[email&#160;protected]</a>
                              http://www.csce.gov
                                @HelsinkiComm
                                
                                
                                
                        Legislative Branch Commissioners                      
                                       
                       
          HOUSE                                                 SENATE
   
CHRISTOPHER H. SMITH, New Jersey                       ROGER WICKER, Mississippi,
Co-Chairman                                            Chairman
ALCEE L. HASTINGS, Florida                             BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                            JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                              CORY GARDNER, Colorado
STEVE COHEN, Tennessee                                 MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                         JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                               THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                              TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                                  SHELDON WHITEHOUSE, Rhode Island                                      

             
                      Executive Branch Commissioners


                          DEPARTMENT OF STATE
	                  DEPARTMENT OF DEFENSE
                          DEPARTMENT OF COMMERCE
 
                               (II)
                               
                               


ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.



ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


                              (III)



 
                  A Deadly Calling: The Murder

                    of Investigative Journalists

                               _______ 
                               
                              May 9, 2018


                                                                    Page
                              PARTICIPANTS

Erika B. Schlager, Counsel for International Law, Commission for 
Security and Cooperation in Europe ................................ 1 

Paul Massaro, Policy Advisor, Commission for Security and 
Cooperation in Europe ............................................. 2

Matthew Caruana Galizia, Journalist, son of Daphne Caruana Galizia 
(via videoconference) ............................................. 3

Pavla Holcova, Founder, Czech Center for Investigative Journalism . 4

Robert Mahoney, Deputy Executive Director, Committee to Protect 
Journalists ....................................................... 6

Jason Rezaian, Journalist, The Washington Post; Global Affairs 
Analyst, CNN ...................................................... 8


                          (IV)





                  A Deadly Calling: The Murder
                  
                  of Investigative Journalists

                          ----------                              

                           May 9, 2018

 Commission on Security and Cooperation in Europe
 
                  Washington, DC


    The briefing was held at 3:37 p.m. in Room SVC 215, Capitol Visitor 
Center, Washington, DC, Erika B. Schlager, Counsel for International 
Law, Commission on Security and Cooperation in Europe, presiding.
    Panelists present: Erika B. Schlager, Counsel for International 
Law, Commission for Security and Cooperation in Europe; Paul Massaro, 
Policy Advisor, Commission for Security and Cooperation in Europe; 
Matthew Caruana Galizia, Journalist, son of Daphne Caruana Galizia (via 
videoconference); Pavla Holcova, Founder, Czech Center for 
Investigative Journalism; Robert Mahoney, Deputy Executive Director, 
Committee to Protect Journalists; and Jason Rezaian, Journalist, The 
Washington Post; Global Affairs Analyst, CNN.

    Ms. Schlager. Good afternoon, ladies and gentlemen. My name is 
Erika Schlager, and I serve as counsel for international law for the 
U.S. Commission on Security and Cooperation in Europe, informally known 
as the Helsinki Commission. On behalf of the commission, I'd like to 
welcome everyone here today.
    Before I turn this briefing over to my colleague, Paul Massaro, I'd 
like to provide some context for today's discussion from the Helsinki 
Commission perspective. The Helsinki Commission is an independent 
agency of the Federal Government charged with monitoring implementation 
of the 1975 Helsinki Accords and advancing U.S. policies regarding the 
Organization on Security and Cooperation in Europe.
    Media freedom and media expression are core commitments in the 
Helsinki process, agreed by the consensus of all 57 participating 
States. All 57 participating States have also agreed that human rights 
and democracy are matters of direct and legitimate concern to all 
participating States and do not belong exclusively to the internal 
affairs of the state concerned.
    The targeting of journalists in Afghanistan a week ago, which 
resulted in the murder of 10 professionals trying to do no more than 
their jobs, was a shocking illustration of the extraordinary risks so 
many journalists take. In the OSCE region, scores of journalists are 
among those who have been swept up in the post-coup attempt in Turkey.
    In Russia, investigative journalist Maksim Borodin appears to be 
the latest victim of sudden Kremlin death syndrome, having died by 
defenestration, and yesterday we learned that investigative journalist 
Olivera Lakic was shot in the leg outside her home. She is the second 
journalist to be attacked in Montenegro this year.
    Today's briefing will examine the murders of investigative 
journalists, including Daphne Caruana Galizia of Malta and Jan Kuciak 
of Slovakia. And I understand that this past Saturday, May 6th, a Holy 
Mass and memorial concert was attended by approximately 3,000 people in 
the eastern Slovak village of Gregorovce. Jan Kuciak was murdered with 
his fiancee Martina Kusnirova, and they would have been married in 
Gregorovce this past weekend.
    I look forward to hearing from our panelists on the challenge of 
impunity and the goal of accountability, on the closing space for 
investigative journalists and any recommendations they would like to 
bring to the table.
    I do have a couple of administrative notes. First, this event is 
streaming live on the Helsinki Commission's Facebook page as well as 
our website. Second, if you're tweeting, please use the Helsinki 
Commission handle, which is @HelsinkiComm, C-O-M-M. Third, please 
silence your cell phones or any other electronic devices you may have. 
And, finally, for our panelists, please be sure to speak closely into 
the microphone, which helps with the clarity of our broadcast.
    And I would like to say thank you to all of you who have come here 
today, including my colleagues from the European Union Parliament, the 
Department of State and the Embassy of the Slovak Republic. I really 
appreciate that you're here to hear these tremendous panelists.
    With that, I turn the briefing over to policy advisor Paul Massaro, 
and thank you, Paul, for organizing this event.
    Mr. Massaro. Well, thank you so very much, Erika, for that 
fantastic introduction. We're very grateful to have four distinguished 
panelists with us here today. We'll first hear from Matthew Caruana 
Galizia, who is joining us over SKYPE. Matthew is the son of Daphne 
Caruana Galizia and himself a journalist. He formally worked with the 
International Consortium of Investigative Journalists (ICIJ) and was an 
instrumental player in major investigations such as the Panama Papers 
and the Paradise Papers. He left ICIJ in 2018 to work on the case 
surrounding the assassination of his mother.
    Following Matthew, we will hear from Pavla Holcova, who is the 
founder of the Czech Center for Investigative Journalism, which is a 
member center of the Organized Crime and Corruption Reporting Project--
OCCRP. An accomplished journalist in her own right, Pavla collaborated 
with Jan Kuciak on an investigation in the Italian Mafia's influence in 
Slovakia.
    We will then hear from Robert Mahoney, deputy executive director of 
the Committee to Protect Journalists--CPJ. CPJ is one of the leading 
organizations advocating for global freedom of the press and the rights 
of journalists. Rob is very well-positioned to represent them as a 
lifelong journalist himself. He has written on the murders of Caruana 
Galizia and Kuciak.
    Finally, we will hear from Jason Rezaian. Jason is a journalist for 
The Washington Post and a global affairs analyst for CNN who served as 
the Post's correspondent in Tehran from 2012 to 2016. During that time, 
he spent 544 days unjustly imprisoned by Iranian authorities until his 
release in January 2016. He knows all too well the threats faced by 
journalists and has written extensively on the topic, including the 
cases of Caruana Galizia and Kuciak.
    With that, I would like to hand the floor to our first speaker, 
Matthew Caruana Galizia. Matthew, please.
    Mr. Caruana Galizia. Thank you, Paul, and thank you to the Helsinki 
Commission. It's a real honor to join this panel. I assume that people 
in the audience are more or less familiar with the case of my mother. 
What they're probably less familiar with is what led to everything that 
happened leading up to her assassination.
    Things really turned badly around 2016 with the publishing of the 
Panama Papers. But even before that, my mother had--really at the peak 
of her 30-year career as a journalist, and the threats against her 
started long ago. Growing up, I thought these things were normal. I 
thought it was normal to get strange phone calls from people screaming 
threats on the phone or to receive letters at home containing feces or 
handcuffs in the letter box.
    We came home from school [audio break, technical difficulties] back 
in the 1990s when my mother was writing about drug trafficking and 
nothing was really ever done to ensure that there was no impunity for 
these crimes--to ensure that people were brought to justice for them. 
So there was this kind of slow increase in threats, I suppose, over the 
first 25 years of her career. But, as I said, over the past perhaps 2 
or 3 years, things became really, really bad.
    There was a concerted effort by government figures to bring libel 
cases against my mother. She had 46 pending against her at the time of 
her death--5 criminal libel cases and the rest of--19 of them brought 
against her by a single political party donor with connections to 
organized crime.
    I think it became so bad around 2016 because that was when my 
mother was bringing really incontrovertible evidence of corruption at 
the highest levels of government to light. It just became impossible 
for people to deny that this corruption really existed--that things had 
become unbearably bad.
    So something had to give. Either my mother had to be eliminated or 
there had to be some kind of judicial action taken against the corrupt 
politicians and businessmen on whom she was reporting. And in the end, 
because Malta's institutions were ineffective, incapable of taking 
action, completely captured by corporate interests and the interests of 
the governing party, no action was taken, and we know what gave in the 
end.
    My mother was killed, and that seems to be what's happening across 
Europe today. In countries where institutions are weak, where there's 
no--where journalists are exposed and left fighting corruption alone, 
they're really the last institution standing against government 
corruption. Then they're threatened and they're eliminated.
    This happened in Slovakia. It looks like it's happening on the kind 
of periphery states of Europe--obviously, Malta is one of them--as well 
as accession states like Montenegro and Serbia, that things are 
becoming increasingly difficult for journalists. In these countries, 
the threats that journalists live under have become normalized.
    Take Italy as an example. It's more or less the same situation, 
where so many journalists are living under armed guards that I've lost 
count. With Malta, it's more or less a lost cause in the sense that we 
depend almost entirely on outside help--on the help of the European 
Commission, on the help of the State Department, and/or the help of 
journalists from countries where they're able to practice their 
profession more freely.
    This is why I think the Daphne Project has been such a help and 
such a boost to both journalists and investigators in Malta who are 
trying to do their job under very difficult circumstances, fighting the 
corrupt leaders of their institutions. It really gives backing to these 
people and it really brings--it really puts pressure on the Maltese 
Government to take action, to allow institutions to do their work, to 
allow institutions to prosecute corruption and to bring charges against 
people who are engaged in organized crime. [Audio break, technical 
difficulties]--or, rather, this attention on the country has really 
changed everything, both for my family as well as for the journalists 
there who are still alive. And what I hope is that it also changes the 
game for journalists not just in the periphery states of Europe who are 
also trying to do their job under difficult circumstances, but 
journalists all over the world, too. I hope it inspires them and makes 
them feel as though the world is looking.
    So thank you, everyone, for this meeting and for being here today. 
The attention that you're giving to this issue is really part of what, 
in the end, I think [audio break, technical difficulties] this and not 
just for my mother, but for other journalists who have been killed and 
imprisoned and who are under threat all over the world.
    Mr. Massaro. Thank you very much, Matthew, for those comments, and 
thank you so much for your emphasis on the need for attention on these 
subjects. I hope that this event serves that cause and for my part, 
I've personally been deeply inspired by the work of the Daphne Project 
and the way that the leading papers of Slovakia came together in the 
aftermath of Jan Kuciak's death and published his unfinished work.
    I think that the collaboration among investigative journalists now 
has been one welcome development from a very dire set of circumstances. 
So with that thought, I'd like to hand the floor over to Pavla. Pavla, 
please.
    Ms. Holcova. Hello. Yes, thank you, Helsinki Commission, for having 
this important, fully important discussion and for inviting me to be 
part of it. I used to live in a region where the media press--media 
were among the most free in the world. But it doesn't apply anymore. 
It's not true anymore because it seems society doesn't see the 
democratic values as a priority anymore. It feels as if people prefer 
simple solutions, simple media, simple articles than those that are 
more complicated, more analyzing, more difficult to understand.
    We are, in Central Europe as a whole region, facing state capture 
at a level we could never imagine before. For journalists, the winter 
already came. We have a fear. We are facing the fear and the fear is 
paralyzing. It's paralyzing us for--from doing in-depth analysis of the 
situation we are now living. It's really difficult for us to tell where 
is the line between politicians, powerful political parties, and 
organized crime--where is the line between financial fraudsters and 
business interests and, once again, political parties. This is mostly 
the case in Czech Republic but in Slovakia as well. This is just the 
wider context of what actually happened with the brutal violent attacks 
on my colleague, Jan Kuciak, and on Daphne in Malta.
    Also, it highlights the importance of our job, importance of doing 
proper investigative journalism. There is one real important thing I've 
learned from this murder of my friend and colleague, and that's the 
importance of sharing and collaboration. That's also the reason why I 
founded Czech Center for Investigative Journalism in 2013 and why we, 
as the Czech Center, joined Organized Crime and Corruption Reporting 
Project, because they are, for me, kind of a--trend setters in the form 
of the way of doing journalism, because it's pretty much based on 
collaboration and pretty much based on sharing of the information.
    It's not only to bring groundbreaking global stories on organized 
crime, on money laundering, on state capture, but also it brings 
protection to journalists, because it's quite easy to silence one 
journalist or two. It's much more difficult to silence a network of 
journalists. And as I'm going to repeat again and again, you can kill a 
journalist, but you can't and you shouldn't kill a story.
    Once you do it, once you kill a journalist, there are tens more to 
come to finish those stories, as we can see in Daphne Project and in 
the ``All for Jan'' project. Yes, but the murders are just tip of the 
iceberg. These days in Slovakia, even though the government changed, I 
still believe the situation is still not stable, because the people who 
are now taking part being exchanged in the government are from the same 
governmental party. Still people protest. Still there are thousands of 
people in the streets requesting the real change in Slovak society, 
requesting the real change in the politics, not other members of the 
very same political party. Also, I believe there's not much will to 
properly investigate the murder of my colleague, Jan Kuciak.
    In Czech Republic, the situation is slightly different but not 
better. We have a president who actually poses in front of the press 
with a toy gun with inscription, ``To journalists.'' Also, when he 
entered the room with Vladimir Putin, who is known for taking the press 
as an enemy, he joked with him--what is actually recorded--that there 
are too many journalists and we should eliminate them.
    At the same time, our prime minister, Andrej Babis, he's owner of 
the biggest media house. At the same time, he is the leader of the most 
powerful political party and at the same time he's one of the most rich 
businessmen and one of the most rich person in the Czech Republic. He 
is actually a walking, living conflict of interest.
    The situation is not better in Hungary, another country for the 
Central Europe. The prime minister, Viktor Orban, created some kind of 
a blacklist of journalists who are enemies of, let's say, his state. 
What's going to happen now with the blacklist is not clear.
    In Poland, those media who are not reporting well for the 
government are being eliminated by financial means. They are being 
investigated for how they pay taxes. There are audits, and many, many 
more. They don't get enough advertisements to survive because they 
don't get the advertisement from the state companies. Yes, and we can 
probably continue to other countries as well.
    Anyway, just slightly a little bit more on the personal note, 
because of my job as an investigative reporter, my family is forced to 
live under police protection. Still, we, as a journalist, not only in 
Czech Republic but also in the whole region of Central Europe, we are 
called enemies. We are called foreign agents. We are called 
mercenaries. It's really difficult to persuade the society that they 
actually need us.
    Yes. Maybe journalism must undergo such a kind of a crisis that we 
actually experience today so that the people, that a society, would 
understand better how they actually need our work, how they should 
actually value the information, unbiased, in-depth, well-researched 
information that, in some cases, can cost lives of the reporters.
    Today, I have brought my daughter here--she's sitting there--just 
to show her that there are still people and the groups of people who do 
value the job we are doing.
    Thank you.
    Mr. Massaro. Well, thank you very much, Pavla, and we most 
certainly do value the job that you are doing and I really appreciate 
you highlighting this, what seems to be a vanishing line between 
organized crime and mainstream politics, and I think that it's really 
alarming. It's something that I pay attention to at the commission 
quite a lot. I work on a lot of anti-corruption issues and that's my 
connection here. It's what Erika and I have worked on together.
    But there really is not an obvious solution. I think part of the 
solution is to be this collaboration that you highlight between 
investigative journalists. It's an extremely powerful deterrent to know 
that you can kill the journalist but you cannot kill the story, and 
it's just not going to do anything for you except bring even greater 
attention on it.
    Ms. Holcova. Yes. I meant, there's also other tools, because 
sometimes in the countries where we work we are not able to publish the 
stories, because once--we will start to be prosecuted for the story. 
The legal system is so embedded with the government that actually it's 
clear--in, like, you can say 100 percent that you can't win the court 
case as a journalist. So it's important to publish somewhere else where 
actually the government, they don't have the tools how to manipulate 
the legal process.
    Mr. Massaro. Absolutely, and that issue of state capture--I've 
written down right here--that's something I wanted to talk about. So 
thank you, again, for highlighting that. It is a confounding issue.
    So with that, I'd like to hand the floor to Rob. Please.
    Mr. Mahoney. Thank you, and thank you to the commission for 
organizing this. And I'm glad that you mentioned that there were people 
from the European Union here, because I think that this is a message 
that we need their support in getting out.
    I wanted to talk a little bit about some of the context of global 
threats to journalists and to press freedom and try to situate what's 
happening in Europe into that because, to us, this is quite 
unprecedented and quite alarming. You know, being a reporter in much of 
the world is dangerous work, but being an investigative reporter can be 
deadly, and the assassinations of Daphne in Malta in October and of Jan 
in February underscore the dangers facing reporters who dig 
painstakingly through thousands of documents and track down reluctant 
sources to expose wrongdoing and to hold the powerful to account.
    Of the 1,303 journalists killed since the Committee to Protect 
Journalists began keeping statistics in 1992, more than half--that's 
838--were murdered. Covering politics, crime, and corruption is more 
dangerous as an assignment for most reporters than covering wars. Some 
256 journalists have been murdered over that period, and they were 
covering corruption, while another 189 were covering crime, according 
to our research.
    According to our research, the killers and those ordering the 
murder of journalists are rarely brought to justice. In fact, in 86 
percent of murder cases, the killers and those who hire them get away 
scot free. We, at the Committee to Protect Journalists, along with our 
colleagues around the world, are working hard to ensure that this is 
not the case for Daphne and Jan. We want their killers and the 
masterminds who employed them unmasked, prosecuted, and brought to 
justice. These murders were particularly shocking because they took 
place in the European Union, where we expect the rule of law to 
prevail.
    Over the years, fortunately, relatively few reporters have paid the 
ultimate price for their work in Western Europe. That makes these two 
brutal slayings of investigative reporters, which were only 4 months 
apart, unprecedented. The intimidation of reporters following the 
tentacles of organized crime is a great concern. Unchecked, assaults 
and threats will lead to that cancer that eats away at independent 
journalism in many violence-plagued societies--self-censorship.
    Smuggling, money laundering, human trafficking, embezzlement of EU 
funds and subsidies are all topics that European journalists, whether 
individually or in collectives, have taken on, and this leaves them 
exposed. Failure to achieve full justice in the cases of Daphne and Jan 
could leave journalists in Malta and Slovakia in even greater danger. 
It would also send a message throughout the rest of the continent that 
reporters' lives don't matter. That would be catastrophic for press 
freedom across Europe, especially given the growing authoritarianism we 
are witnessing in Russia and in several of its former Soviet-era 
allies.
    As mentioned, Poland and Hungary are deeply troubling examples of a 
decline of press freedom in the European Union. Brussels looks on 
fecklessly as media diversity and freedom of expression fray on its 
eastern edges. In Poland, the government has taken control of public 
media, cut off official access to critical reporters and threatened 
others with legal action. Lucrative state advertising is used to wield 
influence over news outlets. Critical outlets are deprived of that ad 
revenue.
    And Hungary has gone even further down that road. Prime Minister 
Viktor Orban, now starting his third term in office, has most broadcast 
and print media in his camp. For example, the news website Atlatszo 
estimates that more than 500 titles are now in the hands of oligarchs 
and businessmen linked to the government, all of them heavily 
benefiting from state advertising. Of those 500, just 3 years ago there 
were only 31 that were aligned to the government. That shows how much 
damage has been done in Hungary through media ownership to the 
independent press.
    And in Bulgaria, another EU member state, three investigative 
journalists have been attacked in the past 6 years. One, a prominent 
television reporter, Genka Shikerova, has had her car set on fire twice 
since 2013. She's famous for asking politicians tough questions on air. 
Someone, apparently, did not appreciate her frankness. No one, of 
course, has been prosecuted for any of the assaults or the arson.
    And so it's hardly surprising that in the countries lining up to 
join the European Union press freedom violations also go unpunished. 
Look at Montenegro. Just last night, as mentioned, journalist Olivera 
Lakic was shot and wounded outside her home in the capital of 
Podgorica. She covers crime and corruption for the newspaper Vijesti. 
It's the second time she's been assaulted for her work, and this latest 
shooting is worrying because it comes just 5 weeks after a car bomb 
exploded outside the home of investigative reporter Sead Sadikovic in 
the northern town of Bijelo Polje. No one was injured. Sadikovic, who 
also reports on corruption and organized crime, had been threatened in 
February over a report he aired in December. He reported the threat to 
the police, but they took no action.
    Outside of the EU, Ukraine has seen the murder of two journalists 
in the past 4 years including Pavel Sheremet, who, like Daphne, was 
blown up in his car. And, finally, to Russia, which is the murder 
capital of Europe for the press, some 38 journalists have been killed 
there since 1992. Some have been high-profile assassinations such as 
those of Forbes editor Paul Klebnikov, or Novaya Gazeta, Anna 
Politkovskaya.
    Some deaths barely make a ripple in the international media because 
it's hard to prove the link to journalism. One such is the death last 
month of investigative reporter Maksim Borodin, who mysteriously fell 
from the balcony of his fifth-floor apartment in Yekaterinburg. Borodin 
had gained national attention in Russia for his reporting on the deaths 
in Syria of Russian private military contractors fighting on the side 
of President Bashar al-Assad.
    This is a dark time for European journalism and the killings of 
Daphne and Jan are an outrage. But that's not the end of the story. It 
can't be. Journalists are fighting back with the best weapon they 
have--journalism. Last month, an international collective of 
journalists representing 18 media outlets from 15 countries was 
launched--the Daphne Project. Its mission is to continue working on 
Daphne Caruana Galizia's unfinished stories as well as to investigate 
the truth about her murder.
    The project yielded almost immediate tangible results because on 
November 23, a member of the European Parliament, Pieter Omtzigt, was 
appointed special rapporteur of the Parliamentary Assembly of the 
Council of Europe. He will monitor the ongoing murder investigation in 
Malta, examine the broader circumstances surrounding the journalist 
staff, and make calls for impunity to be addressed.
    In Slovakia, as we've heard, protests have brought the resignations 
of the prime minister and the interior minister, and journalists around 
the world, as well as those who were working on the news website 
Aktuality with Jan, have vowed to pursue the stories that Jan was 
working on at the time of his death and to monitor the investigation 
into his killing.
    It's essential that we, as journalists, continue the investigations 
of our murdered colleagues to send the message that you cannot censor 
reporters and shut down their work through media. This we are doing. We 
will not remain silent. Briefings like this one play an important part 
in keeping the plight of the press in the public eye. It is essential 
that we keep up the publicity and the pressure so that law enforcement 
and the judiciary bring justice to all those involved in the 
assassinations. Failure to do so will send the message to those with 
the means and the motive that murder is an effective way of silencing 
criticism.
    Thank you.
    Mr. Massaro. Thank you very much, Rob, and I wish the overview 
weren't so grim, but here we are. Thank you also for highlighting the 
cancer of self-censorship. In fact, the worst thing that could possibly 
happen now is for people to be silent--is for people to stop doing 
their work. That's exactly the purpose of these murders, right, is to 
cause that reaction. So if they learn that the only reaction they'll 
get is louder voices, then perhaps these murders will cease. Then that 
would be the hope, right?
    Mr. Mahoney. Absolutely, and, you know, there are these consortiums 
of journalists, some of whom are represented here, that are doing great 
work in keeping these alive. And so congratulations to them and I wish 
them well in their pursuit.
    Mr. Massaro. Thanks again, Rob.
    Jason, you have the floor.
    Mr. Rezian. Thanks for having me this afternoon. I want to make a 
confession that I'm sort of an accidental advocate of press freedom. 
You know, I've spent many years working in Iran, which is a pretty 
hostile environment to journalists, and as many of us who work in that 
part of the world or working in countries where we face a lot of 
threat, we don't think a lot about the challenges our colleagues face 
in other places.
    But I had the opportunity for a year and a half to think about that 
a great deal, and I had the unenviable experience of being somebody who 
had a great platform with The Washington Post to have that taken away 
from me, to be silenced for a year and a half and not really have the 
ability to defend myself in the face of simply ridiculous claims. So 
there wasn't any moment when I sat there in prison and thought to 
myself, OK, I'm going to come out and be a defender of press freedoms.
    But when I came out I saw just how much work had been done on my 
behalf and realized that this is something that I needed to become more 
involved with, A, because it was the right thing to do, but B, because 
I had an opportunity and a platform, and it seemed like a unique one 
and a responsibility, really, whether I wanted it or not, and I decided 
I wanted it.
    And after about 2 years of recovery--it's been since January since 
I returned to work at the Post--and I decided that I would write about 
these issues as much as the Post gave me the opportunity to do that. 
And they've given me a lot of room to write about press freedom issues, 
attacks on the free press--and the unfortunate reality is it's not 
confined to places like Iran and Russia and Mexico and, you know, what 
I'm seeing in my work, and I know that folks at CPJ, Reporters sans 
Frontieres (RSF), the Press Club, other organizations know very well 
and have known for a long time, that this is a problem that reaches all 
over the world.
    And one of the first stories that I wrote when I came back was 
about Jan, and it was something that affected me very deeply, and this 
through line, this sort of connecting thread of impunity, is one that I 
understand in a unique way and feel as though I have an opportunity to 
strike back at.
    But I can't do it alone, and none of these organizations can do it 
without the help of one another, and I'm happy to see the collaborative 
nature of the work that you all do. As you guys know better than most, 
these are not stories that attract the same kind of attention that 
Presidential scandals or volcanoes or other sorts of one-off news 
events do.
    But it affects us all very deeply and I had the opportunity--about 
a month ago, I met Matthew up in New York and we shared a few minutes 
together and, you know, the thing that came home to me was just how 
much these crimes against journalists destroy lives, disrupt families, 
scatter people all over the world, and it's not something that I'm 
going to sit quietly about.
    But, again, the key is to figure out ways to raise awareness on 
these cases. Fortunately, for me, awareness was raised on mine, because 
without that, I wouldn't be here today. I mean, we look at the case of 
President Trump pulling out of the Iran nuclear deal yesterday. There's 
five American prisoners that are being held there right now and you 
didn't hear much about them except from me and a handful of other 
journalists who knew that you had to write about this lest they be 
forgotten.
    And so these are issues that don't have a lot of parallels but we 
have to use the tools and platforms available to us and work together 
to find some common answers to the problems that up until recently we 
may have thought were unique to different geographic locations. But as 
it turns out, there's a problem everywhere and we've got to figure out 
the answer collectively. So I'm happy to be a part of trying to find a 
solution for that.
    Mr. Massaro. Well, thanks so much, Jason. Thank you so much for 
being here today. I think I and many, many people, if not all in this 
room, see you as the living breathing example of how journalists should 
and, hopefully, will react in the face of the kind of intimidation and 
attacks that many are facing today--that is, get louder, get deeper in 
it and really start to speak out. So thank you so much for the work 
you're doing.
    We'll now enter a Q&A phase, and we hope the audience will 
participate. I will start off with just one remark and I welcome anyone 
that would like to say something on this, and that is, I'd like to ask 
a question about the nature of these two killings in particular and the 
nature of the killings we're seeing in the region.
    No effort was made here to make these look like accidental 
killings. These were very clearly planned, in both cases, by hired 
guns--hit men. So I'd just like to get your thoughts on--and if we 
could start with Matthew and Pavla and anyone else who would like to 
speak--on why this is the case and perhaps why this is the case here 
versus the type of murder we see in Russia of journalists where 
somebody falls out a window, right, and is gone.
    Matthew, would you like to say something, or----
    Mr. Caruana Galizia. Thank you. That's the first thing that I 
thought of. I mean, on the scene that day when I ran out to the car and 
everything was on fire, the first thing I thought was that this is a 
declaration of war. It isn't just a way of getting rid of someone. It's 
a show of force and a show of impunity. We can do this in broad 
daylight and we can get away with it.
    And I think it's also--I think the fact that my mother was a woman 
also played a part. If you look at this in the kind of culture and 
dynamics of organized crime in southern Europe and it's dominated by 
men, and it would have been extremely damaging to the egos of both the 
corrupt politicians that my mother was reporting on, who are almost 
universally men, and their allies in organized crime or their 
facilitators.
    And for them to be openly--to be exposed and mocked by a journalist 
who's a woman would have been so humiliating, something that they would 
have never been able to recover from, and I just can't escape this 
feeling that that somehow played a part in my mother's murder. To 
someone or to gangster politicians like the prime minister's chief of 
staff, for example, to have my mother, a woman, reporting on his 
activities and revealing what he was doing, it would have been just so 
humiliating he'd need to retaliate in a way like this, and I think that 
might explain the choice of method.
    But, of course, like you said, it's force. It's a show of 
impunity--that they simply were not concerned, and not concerned with 
making it look like a suicide or anything like that. They were just so 
confident of their ability to get away with it. And it seems that 
they're right, really, because we're 6 months down the line and we 
still have no idea who's behind this.
    Mr. Massaro. Thank you, Matthew.
    Pavla, do you have something you want to say to that?
    Ms. Holcova. In case of Slovakia, it's not only a question of the 
murder of Jan but his fiancee Martina Kusnirova, was murdered as well. 
It brings even--I don't know, I have no explanation. I have no theory 
why. It was to show off the power or the possibility that yes, we can 
kill a journalist. I have no explanation for it because it had to be 
clear that it would bring much bigger storm than if it would look 
innocent. And still, I really--it is one of the questions I would 
really like to hear any kind of explanation why they did it this way. 
It was probably to send some message. But what kind of a message? It's 
not clear to me.
    Mr. Massaro. Thank you. I'm going to ask a second question. Then 
we'll open it up. Erika, would you like to ask a question? No? Okay.
    And that question is, you mentioned during--both Matthew and 
Pavla--that there are a lot of journalists under police protection--
Pavla, yourself, you're forced to live under police protection. I was 
wondering who provides this police protection and are these elements of 
the state that are not captured. You know, are these police acting as 
protection or are they acting as keeping tabs on you, making sure 
that----
    Ms. Holcova. Yes. Actually, I am, and my family, we are under 
police protection of different state----
    Mr. Massaro. Oh.
    Ms. Holcova. ----that actually where it happened. So I am pretty 
much confident that the guys who are taking care of us are real 
professionals and they do their best job to really keep us safe. I 
wouldn't be so sure about my situation if I would be under police 
protection provided by Slovak State.
    Mr. Massaro. Okay. Thank you very much. Do we have questions from 
the audience? Jordan, please. Jordan Warlick, office director at the 
Helsinki Commission. And, Jordan, thank you so much for your help in 
putting this event together.
    Questioner. Yes. Absolutely, and thank you so much to all of you 
for being here and for sharing your powerful stories with us.
    Rob, you referred to Russia as the murder capital of journalists in 
Europe. Would you say that these increasing threats in the EU--the 
murders within the EU--does that embolden Russia in any way, give them 
more of a free pass to commit more murders against their own people?
    Mr. Mahoney. I don't think they need any encouragement to be bold 
in suppressing the media. I think that it's unfortunate that it's 
probably spread westward from Russia rather than going back the other 
way. There was a spate of murders of journalists in the mid-2000s. 
There were a few years when there were none and now it's started again.
    Basically, much of the free and independent media in Russia has 
been silenced. There are very, very few, and you could look at it that 
apart from those few brave journalists that do do this, either there's 
been state capture of the media, particularly of broadcast media, or 
the message that was sent by these high-profile assassinations has been 
received and journalists are either censoring themselves or pulling 
back. So Russia does not need any encouragement from bad actors in the 
European Union. It's sad to think that it's actually spread now.
    Mr. Massaro. Thanks very much. Do we have any questions from the 
audience? Please, right over there. If you could state your name and 
your affiliation that would be great.
    Questioner. Viola Gienger. I'm a freelance journalist.
    Thank you all very much for taking the time to tell your stories 
here. I think it is really important. For those of you with experience 
in Europe recently, when these cases have come about of attacks on 
journalists there, what is the most effective, if any, response that 
you have seen from the European Union or government officials that 
should occur more often?
    Mr. Massaro. Is there anyone in particular you'd like to direct the 
question to?
    Questioner. No.
    Mr. Massaro. Okay. Anyone like to take that? Pavla? Matthew? Rob? 
Jason?
    Mr. Mahoney. Well, I thought maybe the European-based journalists 
would want to go first.
    Mr. Massaro. Yes.
    Mr. Mahoney. For us--the Committee to Protect Journalists--the most 
effective response is to keep the case in the public eye and to keep 
the pressure on various institutions. Don't forget that the 
administration of justice in the European Union is a national thing. So 
you've got to work with the national governments of EU member states 
first. But we bring these cases to the European Parliament, to the 
European Council.
    All these organizations, they don't really have much power. That's 
why it's important that we have briefings like this to keep the 
pressure on the Maltese and the Slovak authorities. Otherwise, they'll 
just slink away into the darkness and these cases will not get proper 
justice because impunity is the big problem here, and it's the same in 
Europe as it is in anywhere else.
    So I would encourage you, if you are a journalist, to write about 
these cases and to follow it through. Like Jason was saying, he's 
started following it. That's the only way that you'll get some justice. 
It's to make there be a political cost to killing journalists or 
suppressing freedom. If there is no political cost, there will be no 
justice.
    Ms. Holcova. Yes, I agree. Thank you for it. For us as journalists, 
the most important answer to such a killing is to finish those stories, 
not to let them be unfinished, and even if you are not able to finish 
those stories, you should publish them even if they are not 100 percent 
ready. We should publish them just to show what was going on behind, 
not to silence the voice that was actually digging into those stories, 
exposing those people who didn't want to be exposed, and expose those 
people.
    Mr. Massaro. So I'd like to follow up on that question real quick--
and, Matthew, just feel free to jump in whenever here in the Q&A 
session, Okay--and that is to ask, are there any thoughts on the panel 
of--you know, you're very right to state, Rob, that the administration 
of justice remains at the national level in the European Union and 
that's a really major piece of this. Are there actions that concerned 
Eurocrats in Brussels can take?
    Mr. Mahoney. Absolutely, there's a lot of things they can do. We 
have seen the appointment of a special rapporteur for the Council of 
Europe. That's not the same, obviously, as the European Union but it is 
an important institution. It's older than the European Union, and we 
need to make sure that all those structures that do exist, including 
the European Parliament and the Commission, are aware of this and are 
able to prevail upon individual member states. There are moral and 
other pressures that can be brought on the administration of justice in 
these states and we certainly want to make sure that those institutions 
are active for those countries that are lining up to join the European 
Union like Montenegro, which we've mentioned, which has----
    Mr. Massaro. Accession criteria.
    Mr. Mahoney. Yes. So we've seen what happened with Turkey when the 
pressure was taken off. The place has gone backward very fast, from a 
press freedom point of view, from the days when it too was actively 
seeking to join the European Union. So, no, Brussels has a very 
important part to play and, again, you know, that's--we have an office 
there for that very reason--that we are trying to make sure that 
pressure is brought and influence wielded on those institutions.
    Mr. Massaro. And while we are sort of at the--in this policy 
responses discussion, we've focused a lot on, and rightfully so, on the 
way that investigative journalists have responded to this with more 
collaboration in a deterring capacity--you know, continuing to push 
this line of, you can kill the journalist but you can't kill the story, 
and that the murder of a journalist will only bring more attention to 
the story you were trying to kill. Is there a role for Congress, 
outside of holding events like these?
    Ms. Holcova. Actually, I think yes.
    Mr. Caruana Galizia. Can I say something? But go ahead.
    Ms. Holcova. Okay, I will be quick. Yes. Actually, what U.S. 
policymakers can do is to ask their European counterparts to keep or to 
bring the issue of protection not only of the journalists but also of 
the whistleblowers and to discuss it more and actually to implement it 
better in international laws, because in Europe the protection of 
whistleblowers it's not as embedded in society and in the system as in 
the U.S. At least, I hope so that it still is embedded in U.S. 
society--protection of the whistleblowers.
    Mr. Massaro. It is.
    Mr. Caruana Galizia. I think the statistics that Rob was mentioning 
give an indication of what the root cause is and what the policy 
solutions could be because if you have a high number of journalists who 
are being killed because they're reporting on corruption then the 
obvious solution, well, is to work on eliminating corruption and the 
European Union has been very weak on that, especially when you compare 
it to the U.S.
    It has no effective cross-border judicial cooperation and no 
effective cross-border police cooperation, no effective diplomatic 
pressure on member states when it comes to corruption. Look at what 
Malta has gotten away with for so many years and they're still getting 
away with. It really took the murder of a journalist for the EU's 
justice commissioner to finally arrange a visit to Malta. It really 
shouldn't get that far. You shouldn't need that.
    I really believe that that's the way forward. You can throw as much 
funding as you want at investigative journalism, but really what we 
need is to not be standing alone. We need an immediate response. When 
we bring stories to attention, there needs to be some kind of--[audio 
break, technical difficulties].
    Mr. Massaro. Thank you very much, Matthew, and I couldn't agree 
with you more. Right. Yes. I just wanted to say real quick that yes, if 
you want to stop investigative journalists from being murdered, then 
fight corruption and end corruption. [Laughter.] I mean, I'm with you.
    Mr. Caruana Galizia. We didn't want to be--we don't want armed 
guards. We don't want to put security cameras on our houses. This isn't 
a way to live.
    Mr. Massaro. Right.
    Mr. Caruana Galizia. We just need the root cause to be--the root 
cause of the problem to be solved.
    Mr. Massaro. Thank you very much, Matthew.
    Bob Hand, policy advisor with the Helsinki Commission.
    Questioner. Yes, thank you. I want to thank all the panelists for 
your presentations. At the commission, I follow the countries of the 
Balkans and so, of course, what just happened in Montenegro but also 
what happens in Serbia and so many of the other countries with 
investigative journalism, and its link to revealing corruption is a 
deep concern to me.
    The one thing I take a little bit of heart in in what happened in 
Montenegro with the shooting of Ms. Lakic is that people go out into 
the street and say the denial of her right to report is a denial of our 
right to know, and maybe it's because Montenegro wasn't as developed a 
democracy that they feel that linkage and that threat much more 
closely.
    But it begs the question, and I haven't heard it at least so much 
here in the case of Malta or Slovakia, putting aside what the European 
Union does or its officials or what the United States says, how do 
the--what was the public reaction to the fact that in what's supposed 
to be a democratic country something like this can take place, and is 
there a sufficient strength in the democratic institutions and the 
system that there are people within Parliament who are insisting on a 
thorough investigation and prosecution?
    Is there a public out there saying this should not be happening in 
our country and trying to encourage efforts to change things or is it, 
as you, Pavla, had said, is the public, the way I interpreted it, more 
passive--they just want simple information and they just view this as a 
way--as just a further confirmation that maybe that's the way to go and 
there's just less of a commitment to preserving a democracy?
    So the short question is, what was the public reaction in Malta as 
well as in Slovakia to these incidents in terms of expressing outrage 
or seeking some concrete action to try to keep it from happening again?
    Mr. Massaro. Pavla, since your name was mentioned I guess you get 
to speak first and then, Matthew, I imagine you'll want to say 
something to this. Then we can----
    Ms. Holcova. Yes. Actually, the public response in Slovakia was 
huge. It's something like 5 million citizens country and there were 
something like a hundred thousand protestors in streets, what is not 
typical for a region. Those were the biggest protests since--in the 
modern history of Slovakia. It was huge and it was the only reason why 
any changes were made in the government.
    Actually, the impact of the protests looked good. You know, the 
prime minister was forced to resign, the minister of interior was 
forced to resign, the head of anti-corruption unit resigned, and the 
police president is due to resign by the end of May.
    Still, the public doesn't see it as real change to the government 
because those people were replaced by the people from the very same 
political party but didn't really bring the change in the trust in the 
institutions, in the free courts, in independent judiciary, in the 
police. The trust in the police is probably the lowest in last 20 
years. So there are more demands and the recent demand of the people 
who are in the streets is actually the new elections that would come or 
won't come. But the public outcry was huge.
    Mr. Massaro. Matthew.
    Mr. Caruana Galizia. It is good that you mentioned Montenegro--
[audio break, technical difficulties]--the European Union's complete 
inability to deal with corruption even in pre-accession states, and 
over the past couple of years the European Union has thrown, I think 
it's almost half a billion euros in pre-accession funding at 
Montenegro, and over the past decade Montenegro's ranking as a 
democracy by the economists and intelligence unit has actually fallen 
from flawed democracy to hybrid regime, which is one step above an 
authoritarian regime and this just--it, obviously, corresponds to the 
state of journalism in the country itself.
    And regarding the--I mean, civil society reaction is--[audio break, 
technical difficulties]--Malta. Malta has had a very different 
experience to Balkan or Eastern European States. There's no--there's 
very little culture of public protest or civil disobedience or anything 
like that. We're really only just the beginning. I think this is the 
first time in probably about 20, 30 years that we're seeing anything 
resembling civil society pro-democracy movements. They're really just 
the beginning.
    Mr. Massaro. Thank you very much, Matthew.
    Jason.
    Mr. Rezian. Yes. I just wanted to say that, from a sort of a media 
news point of view, I mean, the Post sent our Berlin bureau chief to 
Bratislava to cover the protests and he did several live reports from 
there, which I was really happy about it. We wrote quite a few stories 
about the murder and we'll continue to write about them. But, you know, 
I don't know what impact that that had there.
    Mr. Massaro. Jason, in your statement you mentioned that public 
outcry and public advocacy was really key in getting you out of the 
unjust imprisonment that you found yourself in in Iran. Could you speak 
at all to sort of how that went and how effective advocacy looks?
    Mr. Rezian. Well, look, I mean, I was on the other side of the 
wall----
    Mr. Massaro. Right. Right.
    Mr. Rezian. ----so I, you know--speak to the folks here----
    Mr. Massaro. Kind of like forensics. [Laughter.]
    Mr. Rezian. Yes. I mean, Rob and our friends from RSF who are here 
were intimately involved in that throughout. But it has to be a 
concerted effort, you know, that takes place between advocacy groups, 
the organizations, families, receptive governments, and if you don't 
have all of those pieces working in concert, you're fighting an uphill 
battle that you're not likely to win. I think--does that jive with your 
experience, Rob?
    Mr. Mahoney. Yes, absolutely. You need a coalition of people 
pushing in different directions and all the time. There's no one-size-
fits-all way of getting people like Jason out of prison. Iran is its 
own case. It's very different. But the one thing that comes through, as 
we've seen with the journalism, with the advocacy, is the need for 
cooperation and concerted effort.
    Mr. Massaro. Great. Thank you very much.
    Mr. Rezian. And kind of a singularity of the message, whether it's, 
you know, this is an outrage that you've----
    Mr. Massaro. Yes.
    Mr. Rezian. ----imprisoned, murdered or otherwise silenced a 
journalist and it's--I think one thing that undercuts a lot of these 
cases, especially in authoritarian countries when there's imprisonments 
involved--I mean, these days there's so often these charges of against 
national security and terrorism and espionage----
    Mr. Massaro. Oh, yes.
    Mr. Rezian. ----and, you know, these are patently false, across the 
board. You know, you haven't found one yet that was accurate and I 
think we need to do a better job of calling that out from the get-go.
    Mr. Massaro. Absolutely.
    Yes, please. If you could say your name and affiliation.
    Questioner. This is Alex Tarascio with the International Republican 
Institute.
    And I found myself in Bratislava on March 15th and sort of looked 
outside to see 65,000 or 100,000 people protesting outside. I'm 
wondering--I guess, two questions. First, what is it about Jan Kuciak's 
murder that was so different that it seemed--that so quickly mobilized 
a huge number of people to go out into the streets and protest in a way 
that doesn't seem to happen very often for similar crimes? And second, 
is that an effective model? Is Slovakia safer for journalists now as a 
result? Is this something that we should seek in other countries to 
replicate?
    Mr. Massaro. Please.
    Ms. Holcova. Well, I didn't--I mean, the murder was probably just 
the last drop. The frustration in the society in Slovakia was already 
huge before the murder, and when we worked with Jan on the story, we 
discussed a lot what would be the impact of the story and we agreed, 
like, okay, we are actually proving the links between 'Ndrangheta, what 
is the most powerful Italian mafia, to the prime minister of Slovakia.
    And this--I mean, like we need to keep it dry, not to make it, 
like, bombastic because we want to expose the dry facts, and we were 
actually saying, okay, but still nothing much is going to happen 
because, you know, the Direction-Social Democracy (SMER) Party is very 
strong. And then it--I mean, it was, like, maybe 10 days before 
publishing of the story when he was murdered and the--it just didn't 
happen any time before in the whole Central European region that they 
would kill a journalist for his work and that it would be so evident, 
and also he was very young. So you can't really put him in the context 
of any political games. He was 27.
    So I think his profile as a journalist who was properly doing his 
job being murdered for the--possibly for the story of linking Mafia and 
the leading political party and the government actually just sparked 
the huge protests in the streets because, you know, people were already 
quite nervous, quite upset about a government that is in power for 
many, many years already. So it was just the last drop, I believe. It 
was shocking, and it was shocking for everyone.
    What was the second question? Sorry.
    Questioner. Is that an effective model?
    Ms. Holcova. Well, like, killing a journalist off effective model?
    Questioner. Protests. Popular anger.
    Ms. Holcova. Yes. It's not--probably it's not so important for the 
government that is just--you know, that could just follow the protests, 
see what's happening and then act on it. But it's very important for 
the journalists that they can see that someone cares--they are not 
alone. And if we really do our job properly or if we will lose our 
lives doing our job properly we can still bring the change, because 
people really do care about what we are doing. So, yes, it sends a 
strong message to everyone who is interested in actually living in a 
better society.
    Mr. Massaro. Jason, please.
    Mr. Rezian. Yes. As I mentioned, we sent a reporter there to cover 
those protests and I think that that's an indication that it is 
successful, right. I mean, in a democratic society where you're allowed 
to protest the government for their action or inaction, I think that 
it's generally the best course of action, and you bring people onto the 
streets to say damn it, we're not going to stand for this, and there 
needs to be some accountability.
    Now, you know, I'm not Slovakian and, from what Pavla said, the 
government response is not sufficient, because the people that are 
replacing the leaders and officials who have resigned are from the same 
party. But, you know, the opposite--if people were just silent about it 
I think sends the worst message possible, and I'm glad to see that 
there was some solidarity there and I hope that it continues.
    Mr. Massaro. Yes, please.
    Mr. Mahoney. Yes, I think that what we saw there was something 
which took place in the glare of publicity in the capital city and a 
lot of the killings of journalists around the world are not in capital 
cities. There are Brazilian journalists who are covering environmental 
issues in the Amazon, or Mexican journalists who are not in Mexico 
City. Their deaths don't get this kind of publicity and protests 
because the national spotlight isn't on them, and that's the 
unfortunate part of this story, that if you are in a country which has 
a functioning or quasi-functioning democracy and a strong national 
media then the killing will get attention. If you don't, the murder can 
go with very little attention.
    Mr. Massaro. Yes, and I think that ideally you create a culture 
where any murder of any journalist in your country sparks a massive 
protest.
    Mr. Mahoney. Exactly. That's what we're trying to do. [Laughter.]
    Mr. Massaro. Yes, please.
    Questioner. Hello. Weston [sp] over in the U.S. House of 
Representatives.
     Has there been an example of countries who have been able to 
successfully reverse the trend of murder of journalists in their 
country, and if they have, what was it that they did that made it so 
successful?
    Mr. Massaro. Any takers? Rob, maybe?
    Mr. Mahoney. Sure. There have been some examples. I think you could 
look at the numbers of journalists that have been killed in a country 
like Colombia, for example, where there were mechanisms. You had an 
active civil society. You had a government that wanted to do it and you 
had law enforcement that could provide effective protection for 
journalists, and the killings of journalists declined in that case.
    But what we're dealing with in the cases here represented on the 
panel and in other countries like Russia is individual targeted 
assassinations, and it's very difficult to prevent. You know, you can't 
wrap a journalist in bubble wrap and give them bodyguards. They're on 
the street. They're talking to people. They're vulnerable. Where you 
have a conflict or a war situation you can sometimes bring about 
mechanisms for protection. But we've seen it tried and not be 
particularly successful in Mexico. It was more successful in Colombia, 
as I mentioned.
    But as I said in my remarks, more than half the journalists that 
are killed are murdered, and we see that as something that's very 
worrying because you can't really take a great deal of precautions. 
These journalists who are targeted, who are threatened, they can change 
their behaviors. They can try to protect themselves. But the reversing 
of the trend is very difficult.
    Mr. Massaro. Did you want to add something at all, Erika? A 
question, anything with that?
    Ms. Schlager. Thank you, Paul.
    Mr. Massaro. Certainly.
    Ms. Schlager. Before we wrap up--and I know we only have a couple 
minutes left--I did just want to make one observation about these 
issues versus some things that are not being addressed here right now. 
I think from the Helsinki Commission perspective, there are a lot of 
different ways that, unfortunately, freedom of the media and freedom of 
expression can be restricted and the one we're--the method we are 
discussing today is the most serious and that's why we're here. When 
journalists are murdered or physically attacked, it demands our 
attention and we must respond.
    Outside of many of the countries we've discussed here today, there 
is a singular situation in Turkey, and I do just want to acknowledge 
that before we leave the room and note that the Helsinki Commission has 
addressed many of those issues in separate hearings relating to the 
state of emergency. The situation for journalists in Turkey was not 
good even before the state of emergency and it has gotten much, much 
worse since then. So just to give a fuller picture of some of the work 
that we do.
    Thank you.
    Mr. Massaro. Fantastic. Well, any more comments from the panel 
before we close? Any questions from the audience?
    We thank you all so very much for coming today and we will close 
the briefing. [Applause.]
    [Whereupon, at 4:53 p.m., the briefing ended.]
 





  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe [OSCE].

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
